Federal Information Security Management
Act: Fiscal Year 2013 Evaluation




                                   March 31, 2014
                                   Report No. 522
U.S. SECURITIES AND EXCHANGE COMMISSION                                             OFFICE OF INSPECTOR GENERAL



Executive Summary                                Federal Information Security Management Act:
                                                 Fiscal Year 2013 Evaluation
                                                 Report No. 522
                                                 March 31, 2014

 Why We Did This Evaluation                What We Found
 The Federal Information Security          To assess the SEC’s security controls over its information systems
 Management Act (FISMA) provides a         and information security posture, we reviewed the security
 comprehensive framework to ensure         assessment packages for seven of the SEC’s major information
 the effectiveness of security controls    systems (five internally hosted systems and two externally hosted
 over information resources that           systems). The scope of the review consisted of the following 11
 support Federal operations and            areas specified in OMB’s fiscal year 2013 FISMA reporting
 assets. FISMA also requires agency        instructions:
 Inspectors General to annually
 assess the effectiveness of agency            1.    continuous monitoring management;
 information security programs and             2.    configuration management;
 practices and report the results to the
                                               3.    identity and access management;
 Office of Management and Budget
 (OMB). The overall objective of the           4.    incident response and reporting;
 fiscal year 2013 FISMA evaluation             5.    risk management;
 was to assess the U.S. Securities and         6.    security training;
 Exchange Commission’s (SEC)
                                               7.    plan of action and milestones;
 information systems and information
 security posture. The Office of               8.    remote access management;
 Inspector General contracted the              9.    contingency planning;
 services of Networking Institute of           10.   contractor systems; and
 Technology, Inc. (referred to as “we”
                                               11.   security capital planning.
 in this executive summary) to conduct
 the evaluation.
                                           Overall, we found several areas in which the SEC has implemented
                                           improved controls over its information security. For example, the
 What We Recommended                       Office of Information Technology (OIT) has made significant progress
 To strengthen the SEC’s controls          establishing (1) a risk management program; (2) an incident response
 over information security, we             and reporting program; and (3) an enterprise-wide business continuity
 reiterated that the OIT should take       and disaster recovery program, consistent with FISMA requirements
 immediate action to address the           and OMB and National Institute of Standards and Technology
 outstanding recommendations from          guidelines. The OIT has also established a plan of action and
 the fiscal year 2011 and 2012 FISMA       milestones program and properly tailors its baseline control list in
 reports. We also made nine new            compliance with Federal guidance. Finally, the SEC provided, to its
 recommendations for corrective            personnel, security awareness and role-based security training and
 action. In response to a draft of this    has established an information security capital planning and
 report, SEC management concurred          investment program.
 with eight of the nine
 recommendations and nonconcurred          However, we found that the OIT had not taken corrective action on
 with one recommendation.                  some issues identified during the fiscal year 2011 and 2012 FISMA
 Management described corrective           evaluations. We also found that the agency needs to enhance its
 actions that they plan to take.           efforts regarding contractor systems, multi-factor authentication, user
 Because this report contains sensitive    accounts, and configuration management.
 information about the SEC’s
 information security program, we are
 not releasing it publicly.
                                            For additional information, contact the Office of Inspector General at
                                            (202) 551-6061 or visit www.sec.gov/about/offices/inspector_general.shtml.
U.S. SECURITIES AND EXCHANGE COMMISSION                          OFFICE OF INSPECTOR GENERAL


    To Report Fraud, Waste, or Abuse, Please Contact:
       Web:               www.reportlineweb.com/sec_oig

       E-mail:            oig@sec.gov

       Telephone:         (877) 442-0854

       Fax:               (202) 772-9265

       Address:           U.S. Securities and Exchange Commission
                          Office of Inspector General
                          100 F Street, N.E.
                          Washington, DC 20549-2736


    Comments and Suggestions
       If you wish to comment on the quality or usefulness of this executive summary or
       suggest ideas for future audits, please contact Rebecca Sharek, Deputy Inspector
       General for Audits, Evaluations, and Special Projects at sharekr@sec.gov or call
       (202) 551-6083. Comments, suggestions, and requests can also be mailed to the
       attention of the Deputy Inspector General for Audits, Evaluations, and Special
       Projects at the address listed above.
